1sa
MILLER ZEIDERMAN & WIEDERKEHR LLP
ATTORNEYS AT LAW
Faith g. Miller
Lisa Zeiderman*
Evan Wiederkehr
Jennifer M. Jackman*
Christine Biancaniello
Kevin P. Connolly
Ashley Kersting**
Matthew B. Marcus Shauna Tesser-Friedman**
Shivani Shreedhar***
Emily C. Walsh
Liza Yeres**
John P. Corrigan*
OF COUNSEL
*Member of NY & CT Bars
**Member of NY & NJ Bars
***Member of NY & MA Bars
140 Grand Street
5th Floor
White Plains, NY 10601
(914) 455-1000
Facsimile: (914) 468-4244
110 East 59th Street
23rd Floor
New York, NY 10022
(212) 324-3707
May 16, 2018

2sa
Via Email to Askronick@aol.com
Arnold S. Kronick, Esq.
199 Main Street, 5th Floor
White Plains, NY 10601
Re:

Deem v. Deem
Family Court, Westchester County
File No. 153622

Dear Mr. Kronick:
I write to inform you that I have been appointed
to act as the attorney for the Children, Michela and
Nicholas Deem, in the above captioned matter.
As per the enclosed Order Attorney for the
Child, a conference is scheduled for June 25, 2018 at
2:00 p.m. before Hon. Arlene Gordon-Oliver in the
Family Court, 111 Dr. Martin Luther King, Jr. Blvd,
Room 308, White Plains, NY 10601. It will be necessary
for me to meet with the Children prior to said date, and
perhaps more than once. Please be advised that
anything I discuss with them remains private, just as
your conversations with your client remain private.
Also during the course of my involvement, it
may be necessary for me to take a position on certain
issues before the Court. These positions will be based
on my contact with the Children, contact with others,
and my own assessments.
As noted in the Order, as part of my
representation of the Children, it may be necessary to
contact others, such as personal child care providers,
schools, agencies and doctors. I would also appreciate
the opportunity to speak with your client regarding
your own concerns and positions. Because I am the

3sa
Attorney for the Children, be advised that any
information your client provides to me is not covered by
attorney-client privilege and, therefore, may be
disclosed.
Accordingly, by this letter I am requesting that
you indicate if you wish to be present when I speak
with your client or, in the alternative, to provide your
written consent to my speaking with your client
directly.
Please contact my office as soon as possible so
that we may speak, arrange a time for me to speak with
your client and schedule an appointment for me to meet
with the Children in my office.
Thank you for your attention.
Very truly yours,
Faith G. Miller
FGM/sms
Enclosure

4sa
FAMILY COURT OF THE STATE OF NEW YORK
COUNTY OF WESTCHESTER
In the Matter of a Family Offense Proceeding
Lorna M. Deem,
Petitioner,
– against –
Michael A. Deem,
Respondent.
File#:
153622
Docket#:
O-04567-18
O-02984-18
O-04567-18/18A
O-03140-18
O-02984-18/18A
NOTICE APPOINTING
ATTORNEY FOR THE CHILD
It is hereby NOTED that:
Faith G. Miller, Esq.
140 Grand Street, Floor 5th
White Plains, NY 10601
(914) 455-1000
be appointed Attorney for the Child to represent the
following child(ren) in the above proceeding:
Name of Child
Michela Deem

Date of Birth
5/9/2005

Nicholas Deem

5sa
12/19/2006

and it is further
NOTED that Faith G. Miller, Esq. shall contact and
provide initial services to the child(ren) at the earliest
practical opportunity; and it is further
NOTED that the child(ren) shall be made available to
meet with Faith G. Miller, Esq. and it is further
NOTED that all individuals, institutions, educational
facilities, medical care providers and others having
information about these child(ren) shall release same to
Faith G. Miller, Esq. upon presentation of a photocopy
of this order without specific authorization by the
child’s parent or guardian; and it is further
NOTED, that during the pendency of this matter, Faith
G. Miller, Esq. is hereby appointed as Attorney for the
Child as to new petitions that are filed within this
Court that relate to the child(ren) listed herein; and it is
further
NOTED that Faith G. Miller, Esq. shall be served with
all pleadings, notices, requests for adjournment and
other documents filed with the Court by another party
to the proceeding; and it is further
NOTED that the appointment of Faith G. Miller, Esq.
shall continue through any appeal of an order or
judgment of the Court, unless relieved by the Appellate
Division.
You are hereby notified to appear on:
Date/Time:
Purpose:
Part: 3
Floor/Room:
Presiding:

June 25, 2018 at 2:00 PM
Conference
Floor 3/Room 308
Hon. Arlene A. Gordon-Oliver

6sa
Location:
Courthouse
111 Dr. Martin Luther King Jr. Blvd.
White Plains, NY 10601
Dated: May 15, 2018

7sa
SUPREME COURT OF THE STATE OF NEW
YORK
COUNTY OF WESTCHESTER
MICHAEL A. DEEM,
Plaintiff,
- against LORNA M. DEEM,
Defendant.
ORDER APPOINTING ATTORNEY FOR THE
CHILD (By Voucher)
Index No: 68616/2017
HON. JOHN P. GOLANGELO, J.S.C.
Upon all prior proceedings in this action, it is
ORDERED, that the following attorney is appointed as
Attorney for the Child[ren]:
Name of Attorney: FAITH G. MILLER, Esq.
Address:
140 Grand Street, 5th Floor
White Plains, New York 10601
Phone:
(914) 455-1000
Fax: (914) 468-4244
For the following child[ren] (provide names and dates
of birth):
Michela d/o/b 5/9/2005

8sa
Nicholas d/o/b 12/19/2006
ORDERED, that financial inquiry having been made of
the parties, payment for the services of the Attorney
for the Children shall be made through the New York
State Attorney for Children program and the Attorney
for the Child[ren] shall file a voucher for payment; and
it is further
ORDERED, that counsel for the parties shall
immediately contact the Attorney for the Child[ren]
(hereinafter “AFC") to schedule an interview of the
children with the AFC outside the presence of the
parties and their counsel; and it is further
ORDERED, that the parties shall make themselves,
the child[ren] and anyone living in their party’s
household available for an interview with the AFC
(counsel for the parties may be present at any
interview between the AFC and counsel’s client), or the
party may, upon written consent of counsel, waive
counsels presence at any interview; and each party, on
written consent of his or counsel, may schedule
interviews with the AFC, with or without counsel
present, to discuss all issues relevant to custody and
access (the sequence and frequency of such interviews
shall be at the sole discretion of the AFC); and it is
further
ORDERED, that the parties and counsel shall
cooperate with the AFC in providing any documents,
papers or information requested, including executing
releases permitting the AFC to speak with or receive
information from any mental health professionals, social
service workers or agencies, physicians, schools, or
other persons or entities having material and necessary
information regarding the parties or the children; and it

9sa
is further
ORDERED, that the parties shall provide reasonable,
private and unhampered access by the child[ren] to the
AFC, including contact in person or by phone, fax,
email or regular mail; and it is further
ORDERED, that the AFC shall make such applications
to the Court as deemed appropriate including requests
for the appointment of forensic experts to conduct
evaluations, the cost of which shall be borne by the
parties; and it is further
ORDERED, that counsel for the parties shall
immediately send the AFC copies of all papers in the
action, including pleadings, motions and prior orders.
______________________________
HON JOHN P. COLANGELO, J.S.C.
Dated: May 30, 2018
White Plains, New York
To:
FAITH G. MILLER, ESQ.
MILLER ZEIDERMAN WIEDERKEHR
& SCHWARZ LLP
Attorney for the Child(ren)
140 Grand Street, 5th Floor
White Plains, New York 10601
Phone:
(914) 455-1000
Fax: (914) 468-4244
Email: fgm@mzw-law.com
ARNOLD'S. KRONICK, ESQ.
Attorney for Plaintiff
199 Main Street
White Plains, New York 10601

10sa
Phone:
(914) 946-8484
Fax: (914) 949-2822
Email: askronick@aol.com
ROBIN D. CARTON, ESQ.
CARTON & ROSOFF, PC
Attorneys for Defendant
150 Grand Street, Suite 305
White Plains, New York 10601
Phone:
(914) 949-6700
Fax: (914) 381-7158
Email: rcarton@cartonrosoff.com
Fiduciary Clerk

11sa
FAMILY COURT OF THE STATE OF NEW YORK
WESTCHESTER COUNTY PART 3
IN THE MATTER OF:
LORNA M. DEEM,
Petitioner,
Vs.
MICHAEL DEEM,
Respondent.
File No.: 153622
April 25, 2018
HELD AT: FAMILY COURT OF THE STATE OF
NEW YORK
County of Westchester
Richard J. Daronco Westchester County Courthouse
111 Dr. Martin Luther King Jr. Blvd.
White Plains, NY 10601
BEFORE: HONORABLE
GORDON-OLIVER,
Judge

ARLENE

APPEARANCES: ROBIN DALE CARTON, ESQ.
Attorney for the Petitioner
ARNOLD STEVEN KRONICK, ESQ.

12sa
Attorney for the Respondent
DANIELLE GRASSO, ESQ.
Assistant County Attorney
Department of Social Services
TRANSCRIBER: MARTIE GERON-SIMON
PROCEEDINGS
MS. CARTON: And legal custody, but just temporary.
THE COURT: Full legal custody?
MS. CARTON: Yes, please Your Honor, but just
temporarily in the Temporary Order of Protection
which is what Article 8 permits and that this Order of
Protection be a Stay-Away on behalf of my client, the
Petitioner, Lorna Deem, and on behalf of the party’s
two children, Nicholas and Michela. I think,
unfortunately, Your Honor, Mr. Deem’s most recent
Petition, the one filed yesterday, just evidences the
delusional thought and it’s scary and it’s potentially
dangerous and this is the basis of my Application.
THE COURT: Alright, thank you. Mr. Kronick, I’m
sure you have a response to that.
MR. KRONICK: Well, one—I just had a juri—I’ll start
with a jurisdictional question. There is pending divorce
action in which custody is an issue. So, I suggest to The
Court, that any Order of Custody in this matter may be
one over which The Court no longer has jurisdiction
and that the Supreme Court now has jurisdiction on
that matter. That would be my initial observation to
The Court.
Secondarily, Your Honor, my client has
Ubiqus

13sa
61 Broadway - Suite 1400, New York. NY 10006
Phone: 212-346-6666 * Fax: 888-412-3655

